WAIVER

Supreme Court, U.S.
FILED

NOV 2 5 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

J.G., et al

19-658
v.

State of Hawaii, et al

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.

Ei There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

[1] I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Shoul a response be requested, the response
will be filed by a Bar member.
Signature
Date.

Novem

(Type or print) Name

, 2019
Kunio Kuwabe
0 Mr. 0 Ms.

Firm

State of Hawaii, Department of the Attorney General

Address

235 S. Beretania Street, Room 304

City & State
Phone

❑ Mrs. 0 Miss

Honolulu, Hawaii

808-586-1255

Zip
Email

96813

kunio.kuwabe@hawaii.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Robert C. Thurston, Esq.

RECEIVED

DEC - 3 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.

